                OFFICE OF THE SPECIAL INSPECTOR GENERAL

                        FOR AFGHANISTAN RECONSTRUCTION


       INSPECTION OF KOHI GIRLS’ SCHOOL CONSTRUCTION
                PROJECT IN KAPISA PROVINCE:
                    CONSTRUCTION DELAYS RESOLVED,
                         BUT SAFETY CONCERNS REMAIN




                                  October 26, 2009




SIGAR Inspection 10-4
              SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION
                                                      400 Army Navy Drive
                                                     Arlington, Virginia 22202


      October 22, 2009

      MEMORANDUM FOR: Commander, United States Forces-Afghanistan

                                    Commander, Combined Joint Task Force-82

      SUBJECT: SIGAR Inspection Report 10-4: Inspection of Kohi Girls’ School Construction
               Project in Kapisa Province: Construction Delays Resolved, But Safety Concerns
               Remain


      This report provides observations, findings, and recommendations of an inspection of a
      school construction project funded by the Commander’s Emergency Response Program,
      and managed by the Kapisa Provincial Reconstruction Team (PRT). This inspection
      focused on the management, design, and construction work for the Kohi Girls’ School
      located in the Nijrab District of Kapisa Province. This project cost the U.S. government
      approximately $220,000 dollars. It is one of 12 school construction projects initiated by
      the Kapisa PRT during the past 18 months.

      The Office of the Special Inspector General for Afghanistan Reconstruction (SIGAR)
      conducted the inspection between June and August 2009. A summary of our report is on
      page ii. When preparing the final report, we considered written comments submitted
      by United States Forces-Afghanistan and incorporated information provided from these
      comments, as appropriate, into the report. These comments are reprinted in Appendix
      C of this report.

      The inspection was conducted under the authority of Public Law 110-181 and the
      Inspector General Act of 1978, as amended; and performed in accordance with the
      Quality Standards for Inspections issued by the Council of the Inspectors General on
      Integrity and Efficiency.

      Very respectfully,




      Guy Sands-Pingot
      Assistant Inspector General for Inspections
      Office of the Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection 09-4: Kohi Girls’ School Construction Project                                    Page i
                                                      Special InspectorSummary       of Report:    SIGAR Inspection 10-4       October 26, 2009


                       SIGAR
                                                                        General for Afghanistan Reconstruction

                                                                      Inspection of Kohi Girls’ School Construction Project in
                                                                      Kapisa Province: Construction Delays Resolved, But
                                                                      Safety Concerns Remain
   Special Inspector General for Afghanistan Reconstruction

Why SIGAR Did This Inspection –
SIGAR conducts inspections of Afghanistan infrastructure reconstruction projects to determine whether U.S. funds are used
appropriately, contract terms are met, adequate oversight is provided, and the project can be maintained upon turnover to Afghan
authorities.
What SIGAR Inspected –
SIGAR inspected the Kohi Girls’ School construction project in Nijrab District, Kapisa Province, Afghanistan in June and August, 2009.
This project was originally proposed by the Kapisa Provincial Reconstruction Team (PRT) in the summer of 2008 and was approved for
implementation in April 2009. Construction began in May 2009 and the project is scheduled for completion in November 2009. The
project is funded through the Commander’s Emergency Response Program (CERP), at a cost of approximately $220,000. When
completed, the 16 room, 2 story school will serve over 500 students in the ethnically polarized Afghaniya Valley area of Nijrab District.


What SIGAR Found –
 • Project is Meeting Contract Requirements Despite Earlier Construction Delays: During SIGAR’s original onsite visit to this project in
   June 2009, we noted that this project experienced significant construction delays because the contractor reduced his work force
   due to a shortage of operating capital during the early stages of construction. With an insufficient number of laborers working on
   the project, the contractor was unable to meet required tasks. Subsequent to SIGAR’s follow-up visit in August, the contractor
   received the next scheduled payment following certification by the PRT that 40 percent of project work had been completed. This
   payment allowed the contractor to hire the additional workers needed to accelerate the pace of construction to acceptable levels.
   As a result, SIGAR verified that the project is generally compliant with contract schedule, cost, and performance requirements.

 • Presence of War-Related Debris Next to Construction Site: SIGAR noted that the presence of potentially hazardous war-related
    debris on property that is shared by both the newly constructed girls’ school and an adjoining boys’ school. Based on discussions
    with PRT officials, SIGAR believes the debris should have been removed at the start of the project as part of the site preparation
    phase.

What SIGAR Recommends –
That the Commander, Kapisa PRT, in partnership with the Kapisa Provincial authorities, develop a plan for the removal of war-related
debris from areas adjacent to the Kohi Girls’ school construction project.
For more information, contact SIGAR Public Affairs at (703) 602-8742 or PublicAffairs@sigar.mil




Laborers working to complete the Kohi Girls’ School in August                        The war-debris filled yard that the Kohi Girls’ School shares with
2009. (Photo provided by SIGAR)                                                      an existing boys’ school presents hazards to students unless
                                                                                     cleared. (Photo provided by SIGAR)

      SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                                                          Page ii
                                               Special Inspector General for Afghanistan Reconstruction




     Table of Contents

Inspection Objectives -                                                                                         1

Project Background -                                                                                            1
    Contract Timing, Costs, and Construction Requirements                                                       2
SIGAR Inspection Findings -                                                                                     3
    Extended Time Periods Between Payments Cause Project Delays and Release of Workers                          3
    Presence of War related Debris in Adjacent Areas Raises Safety Concerns                                     5
Conclusions -                                                                                                   6

Recommendations -                                                                                               6

Agency Comments and Response -                                                                                  7

Appendix A – Scope and Methodology                                                                              8

Appendix B – Abbreviations                                                                                      9

Appendix C – Agency Comments                                                                                   10

List of Figures and Photographs:
    Figure 1: Location of the Kohi Girls’ School in Kapisa Province                                             1
    Site Photos 1 and 2: Views of the Kohi Girls’ School site before and after construction                     2
    Site Photo 3: Laborers working to complete the Kohi Girls’ School in August 2009                            4
    Site Photo 4: Presence of war debris in the school yard next to the construction site                       4
    Site Photos 5 and 6: Views of the school yard strewn with war-related debris                                6




SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                             Page iii
                                               Special Inspector General for Afghanistan Reconstruction




           Inspection Objectives
           SIGAR conducts inspections of Afghanistan infrastructure reconstruction projects to determine
           whether U.S. funds are used appropriately, contract terms are met, adequate oversight is provided,
           and the project can be maintained upon turnover to Afghan authorities.

           SIGAR inspected the Kohi Girls’ School construction project managed by the Kapisa Provincial
           Reconstruction Team (PRT), which is a component of United States Forces-Afghanistan (USFOR-A),
           between June and August 2009 and conducted onsite inspections of the school construction work
           on June 21 and August 12, 2009.

           Details on our inspection scope and methodology are provided in Appendix A.


           Project Background
           In support of Afghanistan’s educational goals, the United States has sponsored the construction of
           hundreds of schools and educational facilities throughout Afghanistan since 2002. As part of this
           effort, the Kohi Girls’ School construction project was proposed by the Kapisa PRT following a
           request from the provincial government in the summer of 2008 and approved for final
           implementation in April 2009. The school is being built in the Afghaniya part of the Nijrab District
           of Kapisa Province. The intent of this project was to build a school compound for girls residing in an
           area where they otherwise would not have access to formal education. The area where most of the
           potential students live is an ethnically divided, isolated community with a growing population of
           children for whom no adequate school existed. This project resulted from a specific request from
           provincial authorities to construct a school where children of the two predominant ethnic groups—
           Tajik and Pashtun—could interact and receive a basic education in a secure environment.

           The construction site for the school is situated on land owned by the Provincial Ministry of




                 Figure 1: The Kohi Girls’ School is located in the mountainous Nijrab District of Kapisa Province
                 shown by the red star. (Map provided by the Afghanistan Information Management System)

                                                                                                                     Page 1
SIGAR Inspection 10–4 Kohi Girls’ School Construction Project
                                               Special Inspector General for Afghanistan Reconstruction



           Education where an earlier constructed boys’ school is co-located. The project was added to a
           larger school construction initiative approved for implementation in August 2008 with funding
           provided by the Commander’s Emergency Response Program (CERP). 1 As part of this initiative, 12
           school construction projects have been initiated over the past 18 months in Kapisa Province.

           Contract Timing, Costs, and Construction Requirements
           Although the project was approved for implementation in the summer of 2008, a series of contract
           processing missteps forced the PRT to execute a revised bid process in January 2009. For example,
           a contract was awarded to the Provincial Director of Education. This action was subsequently
           found to be in conflict with revised CERP guidelines. This delayed the final awarding of a contract
           until February 2009. This contact was for a firm fixed price of approximately $220,000 and
           stipulated a performance period of 270 days beginning April 17, 2009.

           The contract calls for the construction of a two-story, 16 classroom school building capable of
           accommodating 500 students. Additionally, the contract specified that the contractor must
           prepare and develop the site to include grading and leveling of the compound; removal of rubble
           and debris; and the relocation or removal of existing structures following coordination with local
           authorities. The contractor is also responsible for the construction of associated structures
           including a power generation house with a 10 kilowatt diesel powered generator; a latrine; a guard
           house; a masonry perimeter security wall; a hand operated water pump well and reservoir; and
           concrete walkways. The contract also specifies that the contractor manufacture over 400 desks
           according to a standard design provided by the Ministry of Education.

           The site, which is owned by the Provincial Ministry of Education, had a number of dilapidated
           structures that had to be demolished and removed in order to make room for the school
           compound. The site also shares access points and a school yard with an existing boys’ school built
           several years earlier. At the time of SIGAR’s second onsite inspection in August, it was estimated
           that the project was approximately 30 percent complete. (See Site Photos 1 and 2)




               Site Photos 1 and 2: Views of the Kohi Girls’ School site before construction (left) commenced in April
               2009 and during the SIGAR inspection in August 2009 (right). (Photos provided by Kapisa PRT)


           1
             This initiative was directed by Regional Command East, the higher headquarters of the Kapisa PRT and one
           of five regional commands that comprise the NATO-led International Security Assistance Force within
           Afghanistan. Regional Command East also serves as the headquarters for the Combined Joint Task Force
           located at Bagram Air Field which reports to USFOR-A.



                                                                                                                         Page 2
SIGAR Inspection 10–4 Kohi Girls’ School Construction Project
                                               Special Inspector General for Afghanistan Reconstruction




           SIGAR Inspection Findings
           SIGAR inspectors found that after an initial series of contracting missteps, the project is now on
           schedule and within budget. SIGAR also found that the quality standards required by the
           statement of work were generally being met by the contractor. SIGAR believes increased attention
           and mentoring from the Kapisa PRT engineering staff have assisted the contractor to meet these
           standards.

           SIGAR noted that the contractor did not have enough operating capital to hire an adequate number
           of workers until he met the required completion target that authorized further payment for work
           performed. As a result, construction delays occurred in part because of the timing of those
           payments.

           SIGAR also noted the presence of war-related debris on the school lot shared by both schools at the
           construction site.

           Construction Delays Resolved with Payment to Contractor for Work Accomplished

           In discussions with both the contractor and PRT officials, SIGAR found that issues dealing with the
           timing of payments for construction work accomplished were a matter of concern for the
           contractor. Additionally, the PRT was concerned at the lack of progress being made by the
           contractor as a result of an inadequate number of workers on the construction site. The contractor
           indicated that he had been forced to slow down construction because his firm was a small
           company that had limited financial capacity to cover work crew salaries and other expenses. As a
           result, he could not pay all of his workers due to a lack of working capital. In his opinion this
           problem was caused by delays on the part of the PRT in paying him.

           Kapisa PRT officials explained that, per CERP guidance, project payments were tied to construction
           progress and that Kapisa PRT engineers had determined that less than 40 percent of required work
           had been completed since their last on-site inspection. According to the contract, subsequent
           progress payments are to be made at the 40, 60, 80, and 100 percent completion levels.

           SIGAR noted that based on the contract requirements and the progress made as of the date of the
           onsite inspection; the contractor was not technically eligible for another payment until at least
           another 10 percent of the project was completed. Following further discussions observed by the
           SIGAR inspection team, the PRT Quality Assurance Representative agreed to submit payment for
           work being accomplished by the contractor. However, PRT officials stated that delays in payment
           of up to 4-6 weeks were common and that the PRT was not able to accelerate payments which are
           processed through the finance office at Bagram Air Field. This is an issue that SIGAR will explore
           further during future inspections of CERP funded infrastructure projects to determine if a pattern
           of slow payments to contractors exists.

           SIGAR believes that construction delays resulting from payment delays are detrimental to the
           reconstruction effort and that efforts should be made to avoid such delays. SIGAR believes that if
           the contractor is able to meet the current project task schedule, progress payments should be
           forthcoming in a timely and regular schedule that will allow him to reach the construction
           completion milestones specified in the contract.




SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                                    Page 3
                                               Special Inspector General for Afghanistan Reconstruction




               Site Photo 3: Laborers working to complete the Kohi Girls’ School in August 2009. Projects
               such as this one provide legitimate local employment while allowing workers to develop
               new skills. (Photo provided by SIGAR)




              Site Photo 4: A destroyed armored military vehicle and other war-related debris raise concerns of
              hazardous objects being present on land adjacent to the school construction site. (Photo provided
              by SIGAR)


SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                                     Page 4
                                               Special Inspector General for Afghanistan Reconstruction




           Presence of War Related Debris in Shared School Yard Area Raises Safety Concerns
           SIGAR noted that the school is being built adjacent to an existing boys’ secondary school that had
           been constructed several years earlier by the Afghan government with international donor funds.
           SIGAR observed extensive debris and rubble on the grounds of the boys’ school that was
           apparently left over from fighting in the area which occurred years earlier and has never been
           cleared. This school yard will be a shared point of access to both the girls’ school and the boys’
           School once construction is completed. SIGAR observed parts of several destroyed armored
           military vehicles on this school yard (see Site Photos 4 and 5).

           Both the PRT engineer and school officials acknowledged that the presence of such war-related
           debris raises the possibility that hazards from unexploded ordnance exist and that such debris
           poses risks to users of both schools. SIGAR asked why such objects had not been cleared earlier as
           part of the site preparation phase of the project. The School Director stated that removal of such
           war debris is the responsibility of the Ministry of Defense. SIGAR believes the presence of war-
           related objects adjacent to the school grounds raises serious safety concerns that should be
           immediately addressed.




                                                                                                          Site Photos 5 and 6: Views of
                                                                                                          the school yard that the Kohi
                                                                                                          Girls’ School shares with the
                                                                                                          adjacent boys’ school (left).
                                                                                                          SIGAR believes that the
                                                                                                          statement of work should
                                                                                                          have included removal of
                                                                                                          such hazards. (Photos
                                                                                                          provided by SIGAR)




SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                                                             Page 5
                                               Special Inspector General for Afghanistan Reconstruction




           Conclusions
           While initially suffering from several contract and construction delays, SIGAR found that the Kohi
           Girls’ School project appears to now be generally compliant with statement of work requirements.

           SIGAR is concerned that the hazards relating to war-related debris in the vicinity of the school may
           not have been fully examined during the development phase of this project. SIGAR believes the
           presence of such war-related debris has created a safety hazard that needs to be addressed.

           Recommendations
           SIGAR recommends that the Commander, Kapisa PRT, in partnership with the Kapisa provincial
           authorities, develop a plan for the removal of war-related debris from areas adjacent to the Kohi
           Girls’ School construction project.




SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                                     Page 6
                                               Special Inspector General for Afghanistan Reconstruction




           Agency Comments and Response
           USFOR-A and the Kapisa PRT provided written comments on a draft of this report which are
           included in Appendix C.

           In the draft report sent for comment, SIGAR had recommended a review of CERP payment
           procedures with a view to ensure they are flexible enough to meet the commander’s local
           development requirements. USFOR-A did not agree, stating the need to maintain existing
           procedures relating to “payment for work completed.” However, the Kapisa PRT’s response
           concurred with the information provided in the SIGAR report. The PRT response also agreed with
           SIGAR’s original view, stating that even slight delays in progress payments can cause “work to cease
           on site.” Because the problem this recommendation was intended to address was at least partly
           solved once the PRT verified that the contractor had reached the 40 percent project completion
           mark, SIGAR removed this recommendation from this report. SIGAR recognizes that uncompleted
           or substandard work should not be rewarded and payment milestones exist to ensure work that is
           paid for reflects actual work accomplished. However, payment procedures need to be responsive
           to the needs of both the PRT and the contractor in terms of paying for work accomplished in a
           timely manner.

           USFOR-A’s response to SIGAR’s recommendation for addressing the removal of war debris and
           potential unexploded ordnance focused on the issue of whether or not this category of activity is
           approved under CERP guidelines. USFOR-A asserted that the removal of unexploded ordnance
           would not be approvable unless it was considered to be incidental to construction and stated that a
           legal review would be required prior to the removal of unexploded ordnance from “a non-CERP
           project site.” In its response to this recommendation, the Kapisa PRT partially concurred with
           SIGAR’s view concerning the need to clear potential hazards from the adjacent school yard.
           However, the PRT response also stated that the site might be considered to be “cleared by
           occupation” due to the evidence of site use “by young adults for many years.”

           SIGAR believes that the removal of potentially hazardous debris can be justified on humanitarian
           grounds under CERP guidelines since clearance and preparation of the area around a construction
           site is a normal part of any infrastructure project and is therefore “incidental to construction.” In
           any event, SIGAR believes that the Kapisa PRT needs to work with the Kapisa Provincial authorities
           to develop a plan to remove this potentially serious hazard.




           (This report was conducted under the SIGAR Inspection Project Code SIGAR-002e-I)



SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                                      Page 7
                                               Special Inspector General for Afghanistan Reconstruction




           Appendix A- Scope and Methodology
           SIGAR performed this project inspection during June 2009 and August 2009 in accordance with
           Quality Standards for Inspections issued by the Council of the Inspectors General on Integrity and
           Efficiency. The inspection team included the Assistant Inspector General for Inspections and an
           engineer inspector.

           In performing this project inspection, SIGAR:

                •    Reviewed contract documentation to include the following:

                     -     Contract Kapisa-Nijrab-200806090807 issued by the Kapisa – Parwan PRT on February
                           11, 2008; relevant purchase orders, invoices, and vouchers dealing with the project;
                           the Statement of Work with all required specifications and accompanying
                           documentation.

                     -     Documentation prepared and presented by the contractor dealing with the
                           construction of the school project.

                     -     The Survey and Assessment Plan including design drawings and specifications, Kapisa
                           PRT quality assurance reports and records, construction progress photographs and
                           other documentation brought to the inspection team’s attention.

                •    Interviewed the previous and current Kapisa PRT Commanders and other knowledgeable
                     members of the Kapisa PRT staff; the contractor and work foreman who were present
                     during the on-site visits to the school construction sites made in both June and August
                     2009; and the Kapisa Provincial Director of Education.

                •    Conducted an on-site inspection of the school project during inspection visits to other
                     projects on June 19-21, and August 12, 2009. Personnel from the Kapisa PRT (that included
                     the previous and current Kapisa PRT engineer and members of their staff) accompanied
                     SIGAR inspectors during these inspection visits.




SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                                     Page 8
                                               Special Inspector General for Afghanistan Reconstruction




           Appendix B – Abbreviations
           CERP                            Commander’s Emergency Response Program
           PRT                             Provincial Reconstruction Team
           SIGAR                           Special Inspector General for Afghanistan Reconstruction
           USFOR-A                         United States Forces-Afghanistan




SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                             Page 9
                                               Special Inspector General for Afghanistan Reconstruction




           Appendix C – Agency Comments




  [Note: When the draft of this report was sent for agency comment, it was tentatively designated as SIGAR Inspection 09-02.
  Since receiving agency comments, this report has been re-designated SIGAR Inspection 10-4 as it is being issued in FY 2010.]


SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                                          Page 10
                                               Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                             Page 11
                                               Special Inspector General for Afghanistan Reconstruction




SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                             Page 12
                                               Special Inspector General for Afghanistan Reconstruction




    SIGAR Mission and Contact Information
           SIGAR Mission:                  The mission of the Special Inspector General for Afghanistan
                                           Reconstruction is to enhance oversight of programs for the reconstruction
                                           of Afghanistan by conducting independent and objective audits,
                                           inspections, and investigations on the use of taxpayer dollars and related
                                           funds. SIGAR works to provide accurate and balanced information,
                                           evaluations, analysis, and recommendations to help the U.S. Congress, U.S.
                                           agencies, and other decision-makers to make informed oversight, policy,
                                           and funding decisions to:

                                           •    Improve effectiveness of the overall reconstruction strategy and its
                                                component programs;
                                           •    Improve management and accountability over funds administered by
                                                U.S. and Afghan agencies and their contractors;
                                           •    Improve contracting and contract management processes;
                                           •    Prevent fraud, waste, and abuse; and
                                           •    Advance U.S. interests in reconstructing Afghanistan.

            Obtaining Copies of SIGAR                            To obtain copies of SIGAR documents at no cost, go to
            Reports and Testimonies:                             SIGAR’s web-site (www.sigar.mil). SIGAR posts all released
                                                                 reports, testimonies, and correspondence on its web-site.

            To Report Fraud, Waste, and                          To help prevent fraud, waste, and abuse by reporting
            Abuse in Afghanistan                                 allegations of fraud, waste, abuse, mismanagement, and
            Reconstruction Programs:                             reprisal contact SIGAR’s Hotline:

                                                                    •   Web: www.sigar.mil/fraud
                                                                    •   Email: hotline@sigar.mil
                                                                    •   Phone DSN Afghanistan: 318-237-2575
                                                                    •   Phone International: +1-866-329-8893
                                                                    •   Phone DSN International: 312-664-0378
                                                                    •   U.S. Fax: +1-703-604-0983

            Public Affairs:                                     Public Affairs Officer
                                                                  • Phone: 703-602-8742
                                                                  • Email: PublicAffairs@sigar.mil
                                                                  • Mail: SIGAR Public Affairs
                                                                           400 Army Navy Drive
                                                                           Arlington, VA 22202




SIGAR Inspection 10–4 Kohi Girls’ School Construction Project                                                                 Page 13
